No.

 

IN THE
Supreme Court of the Anited States

ANGEL C. PACHECO,
Petitioner,
Vv.
STATE OF MAINE,

Respondent.

On Petition for a Writ of Certiorari to
the Maine Supreme Judicial Court
Sitting as the Law Court

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

Throughout the proceedings in the state court below, petitioner has been
represented by court-appointed counsel because of his indigent status. Pursuant to

Rule 39.1, copy of the order appointing that counsel is appended hereto.

Kh

- e+

Dated August 27, 2020 Rory A. McNamara
Counsel of Record for Petitioner
Drake Law, LLC
P.O. Box 143
York, ME 03909
rory@drakelawllc.com
STATE OF MAINE
Location SOMERSET CRIMINAL DOCKET
Docket No. SOMCD-CR-2018-00577

STATE OF MAINE
ve NOTICE OF APPOINTMENT

ANGEL C PACHECO
262 WALNUT ST APT 1
WATERBURY CT 06704

The purpose of this notice is te inform you, ANGEL C PACHECO that your court-appointed
attorney is:

BRAD GRANT Appt Date:01/08/2019
11 PARK STREET

WATERVILLE ME 04903

TEL: (207) 877-7782

YOU MUST CONTACT YOUR ATTORNEY IMMEDIATELY tc make an appointment to discuss your case.
Tf you fail to do so you may miss important deadlines and make it more difficult for your
attorney to assist you.

You must contact this Court if there are any changes in your address or financial
status. Failure to do so could result in a violation of a court Order and criminal
prosecution,

 

If you should have any questions, please contact the court at:
SOMERSET CRIMINAL DOCKET t
47 COURT ST i

SKOWHEGAN ME 04976 L
TEL: (207) 474-9518
TTY: (711) ~

 

ey Rg “:
“AS She Feadngiebs,

Clerk

Date: 01/08/2019

 

 

Page 1 of 1

 

CR-197, Rev. 06/15

I
